                       National Archives and Records Administration
                                                                                                 8601 Adelphi Road
                                                                                College Park, Maryland 20740-6001

Date       January 15,2009
Reply to
Atlnof     Office oflnspector General (OIG)

Subject:   Audit Memorandum No. 09-04, Regional Archives Compliance with Procedures for Controlling
           Specially Protected Holdings

To         Tom Mills, Assistant Archivist for Regional Records Services

           The purpose of this audit memorandum is to inform you of regional archive non-compliance with
           procedures intended to provide additional protection to a sub-set of archival holdings known as
           Specially Protected Holdings. According to NARA 1572, Security for NARA Holdings, these
           holdings have been identified by NARA staff as especially vulnerable to theft because they have
           especially high historic or intrinsic value.

           This audit was undertaken pursuant to audit work conducted by this office of the controls over
           Presidential Library (NL) textual records. While performing field work for the Presidential
           Libraries audit the OIG discovered the regional archives were not in compliance with several
           aspects ofNARA 1572 relating to specially protected holdings. As a result, we performed audit
           work of Office of Regional Records Services (NR) processes relating to NARA 1572.
           Specifically, we met with staff from the Office of Regional Records Services in College Park,
           MD, and disseminated a questionnaire to each ofthe regional archives in order to obtain
           additional information about the level of regional archive compliance with procedures
           established in NARA 1572 for controlling specially protected holdings. We found regional
           archives had not performed the following activities relating to controls over specially protected
           holdings, as required by NARA 1572 1:

               • 	 Nominated selected staff for background checks required to access vaults or other
                   specially protected areas (nominations to be sent to NASS);
               • 	 Reported their storage methods, exact container locations, and names of staff with access
                   to Specially Protected holding to NASS, and;
               • 	 Performed annual inventories of specially protected holdings and provided the results to
                   the Office Head.

           NARA 1572 specifies NARA's policy on security for NARA holdings, including material
           identified as needing special protection. The Directive provides guidance for identifying those
           holdings that would benefit from special protection and also provides specific steps to be taken
           to (1) segregate these holdings fr01'I1 the general population; (2) control access to them, and; (3)
           account for them, as a means of providing additional safeguards.



           1 A table summarizing regional archive responses to the OIG administered questionnaire can be found as Appendix
           B of this audit memorandum.
As a result of these conditions NR lacks assurance that specially protected holdings are being
controlled in a manner consistent with their value. We have made four recommendations that we
believe, upon implementation, will address the weaknesses cited in this audit memorandum. Our
findings and recommendations are presented in detail in Appendix A. Because ofthe limited
audit work performed and the fact that similar findings concerning NL controls over Specially
Protected Records have already been communicated to NL and the agency via audit report
number 09-01, we chose the Audit Memorandum product to report out this audit activity.

This performance audit was conducted in accordance with generally accepted government
auditing standards (GAGAS) between August 2008 and October 2008. These standards require
that we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We believe that
evidence obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives.

We will look for your response on how you plan to implement our recommendations in 30 days.
Should you have questions contract James Springs, Assistant Inspector General for Audits or me
on 301-837-3000.




PAUL BRACHFELD
Inspector General

cc: 	 Adrienne Thomas, Acting Archivist of the United States
      Susan Ashtianie, Director, Policy and Planning Division




                             National Archives and Records Administration                      2
                                                                               APPENDIX A 



                                   Report Audit Findings

Staff was not nominated for background checks and storage methods and container locations
were not reported to NASS

We found twelve of the thirteen regional archives had neither (1) nominated staff for access to
Specially Protected Holdings, nor (2) reported their storage methods and exact container location
to NASS. Furthermore, we found that the level of background checks and the process by which
they would be accomplished and communicated was not defined in NARA policy. We were
informed by the Policy and Planning Staff (NPOL) that this specific information was not
included in NARA 1572 because it was up to the Space and Security Management Division
(NASS) to develop supplemental policy and procedures in this area. The Space and Security
Management Division (NASS) stated they did not concur with this aspect ofNARA 1572 and
they did not intend to develop supplemental policy nor did they have the resources necessary to
carry out additional tasks associated with specially protected holdings. We believe the level of
background checks required, and the process by which they are accomplished, should be clearly
articulated in either NARA 1572 or NASS supplemental guidance in order to add value to this
requirement. NR should then ensure regional archives are compliant with the requirement.

We also found that while NASS had a review checklist based on NARA 1572 requirements,
specifying they review and certify the SPR storage area(s), they had not yet performed any ofthe
requisite reviews since the establishment of the requirement in January 2006. NASS stated they
did not know when they would have the resources necessary to conduct such reviews or when
these inspections would be completed. The OIG believes the information necessary to
approve/initially certify SPR storage areas can be conveyed through the requirement that storage
locations and methods be reported to NASS. NASS can use this information, supplemented by
photos of the storage locations if necessary, to remotely review the storage areas and certify them
(or communicate steps necessary to bring them into compliance) until such time as they are able
to perform the required on site inspection.

Recommendation 1:

The Director for the Policy and Planning Staff (NPOL) should revise NARA 1572 to include
specific information concerning the timing and level of background checks required for staff
with access to specially protected holdings, or the Office of Administrative Services (NA) should
ensure the Security Management Branch (NASS) develop standard operating procedures for
background checks for those required to access specially protected holdings.




                             National Archives and Records Administration                        3
                                                                                  APPENDIX A 



Recommendation 2:

The Assistant Archivist for Administrative Services (NA) should ensure the Security
Management Branch (NASS) initially certifies designated SPR storage areas. Ifthis cannot be
done via on-site inspection because of time or budget constraints it should be done remotely
through the exchange of information necessary to allow NASS to either certify the specially
protected storage areas or communicate changes necessary to bring such holding areas into
NARA 1572 compliance.

Recommendation 3:

The Assistant Archivist for Regional Records Services should ensure regional archives are in
compliance with the revised procedures and defined requirements resulting from
recommendation 1. Specifically, they meet the requirements for (a) nominating selected staff
with access to specially protected holdings for background checks and (b) provide storage
methods and container locations to NASS.

Regional archives have not conducted annual SPR inventories and transmitted them to NR in
accordance with established requirements

Based on our survey results, five of the thirteen regional archives (38%) responded they had
either not performed the annual inventory or had not performed the inventory in accordance with
established guidelines (e.g. one region responded they performed the inventory on a bi-annual
basis rather than annually). We attempted to obtain from NR the results ofthe annual
inventories for FY 2007 and 2008 and were told that NR did not maintain the results. NR
management officials stated their interpretation of the NARA 1572 requirement for transmitting
results of the annual inventory to the Office Head allowed regions to certify such inventories
were taking place via their annual program review reporting. NARA 1572 requires regional
archives to maintain itemized lists of their unique record items requiring special protection,
inventory 25% of these on an annual basis, and provide the results to the Office Head.

Recommendation 4:

The Assistant Archivist for Regional Records Services should ensure regional archives are
annually inspecting 25% of their specially protected holdings, consistently and uniformly
recording the results, and transmitting the information to the Office Head in accordance with
NARA 1572. If regional archive self certification of compliance with the annual
inventorying requirement contained in NARA 1572 is deemed to meet agency requirements
that results are reported to the Office Head, then NR should establish a process by which a
sample of actual inventory results are obtained and reviewed by NR annually as a control
mechanism for ensuring (a) 25% of specially protected holdings are reviewed, (b) samples
are rotated annually, and (c) unaccounted for items are properly reported and appropriate
action is taken.




                             National Archives and Records Administration                       4
                                                                                                                         APPENDIXB

NOTE: The "X's" in this appendix represent redactions done under FOIA Exemption "high" b(2) to protect
predominantly internal information the disclosure of which significantly risks circumvention of agency regulations or
statutes.
                                  Regional Archive Responses to OIG Questionnaire

NR Re2ional Archives Compliance with Policy for      Safe~ uardin2   Specially Protected Holdin2s
Regional Archive        Storage       Received NASS         Staff authorized   Received NASS      Maintain        Annually    Provide results
                        methods and   concurrence - NASS    to access SPRs     concurrence ­      itemized list   inventory   of inventory to
                        container     inspected!certified   reported to        Background check   ofSPRs          SPRs        Office Head
                        locations     storage areas         NASS               performed
                        reported to
                        NASS
Northeast Region             XX               XX                  XX                  xx               xx            xx            XX
(Boston)                                                                                                                                        i

Northeast Region             XX              XX                   xx                 xx                xx            xx            XX
(New York)
Mid-Atlantic Region          XX              XX                   XX                 xx                XX            xx            XX
(Philadelphia)
Southeast Region            XXx              XX                  XXX                 XXx               xx           XXx            XX
(Atlanta)                                                                                                                                       I

Great Lakes Region           XX              XX                  XXx                 XX                XX           XXx           XXX
(Chicago)
Central Plains Region        XX              XX                   XX                 XX                XX            XX            XX
(Kansas City)                                                                                                                                   I
                                                                                                                                                ,

Southwest Region             XX              XX                   XX                 XX                XX            XX            XX           I
                                                                                                                                                I

(Ft. Worth)                                                                                                                                     I
                                                                                                                                                I

Rocky Mountain               XX              XX                   XX                 XX                XX            XX            XX
Region (Denver)                                                                                                                                 I




Xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx.
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx.
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx.
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx.

                                              National Archives and Records Administration                                                 5
NR Reeional Archives Compliance with Policy for Safeg uarding Specially Protected Holdines                                                               I

Regional Archive          Storage         Received NASS         Staff authorized   Received NASS      Maintain         Annually        Provide results
                          methods and     concurrence - NASS    to access SPRs     concurrence ­      itemized list    inventory       of inventory to
                          container       inspected!certified   reported to        Background check   ofSPRs           SPRs            Office Head
                          locations       storage areas         NASS               performed 

                          reported to 

                          NASS 

Pacific Region                 XX                XXx                  xx                  XX               xx                     XX        XX
(Laguna Niguel)
Pacific Region (San            XX                XXX                  XX                  xx               xx                     XX        XX
Francisco) 

Pacific Alaska Region 
        XX                XX                  XXx                  XX               XX                     XX        XX
(Anchorage) 

Pacific Alaska Region 
        XX                XX                   XX                  XX               XX                     XX       XXx
(Seattle)
National Personnel             XX                XX                   XX                  XX               XX                     XX        XX
Records Center
(St. Louis)                                                                                                           ,~-   ~ ~ ...




Xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx.
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx.
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx.
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx.

                                                  National Archives and Records Administration                                                      6
